<html>
<title> - NOMINATION OF MARIA ELIZABETH RAFFINAN</title>
<body><pre>[Senate Hearing 111-1050]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 111-1050
 
                 NOMINATION OF MARIA ELIZABETH RAFFINAN

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION


                               __________

   NOMINATION OF MARIA ELIZABETH RAFFINAN TO BE AN ASSOCIATE JUDGE, 
               SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

                               __________


                           SEPTEMBER 21, 2010

        Available via the World Wide Web: http://www.fdsys.gov/

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
63-831                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="93f4e3fcd3f0e6e0e7fbf6ffe3bdf0fcfebd">[email&#160;protected]</a>  


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
CLAIRE McCASKILL, Missouri           JOHN ENSIGN, Nevada
JON TESTER, Montana                  LINDSEY GRAHAM, South Carolina
ROLAND W. BURRIS, Illinois
EDWARD E. KAUFMAN, Delaware

                  Michael L. Alexander, Staff Director
               Kristine V. Lam, Professional Staff Member
Lisa M. Powell, Staff Director, Subcommittee on Oversight of Government 
    Management, the Federal Workforce, and the District of Columbia
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                   Jennifer L. Tarr, Minority Counsel
    Jennifer A. Hemingway, Minority Staff Director, Subcommittee on 
  Oversight of Government Management, the Federal Workforce, and the 
                          District of Columbia
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Akaka................................................     1
    Senator Voinovich............................................     2
Prepared statements:
    Senator Akaka................................................     7

                               WITNESSES
                      Tuesday, September 21, 2010

Hon. Eleanor Holmes Norton, a Delegate in Congress from the 
  District of Columbia...........................................     1
Maria Elizabeth Raffinan to be an Associate Judge, Superior Court 
  of the District of Columbia....................................     3

                     Alphabetical List of Witnesses

Norton, Hon. Eleanor Holmes......................................     1
Raffinan, Maria Elizabeth:
    Testimony....................................................     3
    Prepared statement...........................................     8
    Biographical and financial information.......................     9
    Responses to post-hearing questions from Senator Coburn......    25
    Letter of support from Paul Strauss, U.S. Shadow Senator from 
      the District of Columbia...................................    26


                 NOMINATION OF MARIA ELIZABETH RAFFINAN

                              ----------                              


                      TUESDAY, SEPTEMBER 21, 2010

                                     U.S. Senate,  
                       Committee on Homeland Security and  
                                        Government Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:53 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka presiding.
    Present: Senators Akaka and Voinovich.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. This hearing will now come to order. Aloha 
and welcome here today as this Committee considers the 
nomination of Maribeth Raffinan to be an Associate Judge of the 
District of Columbia Superior Court.
    I am pleased that Ms. Raffinan is yet another well 
qualified individual nominated by the President from a group of 
candidates recommended to him by the non-partisan Judicial 
Nomination Commission. I am confident that if confirmed, she 
will join the others who have appeared before this Committee in 
making valuable contributions to the District of Columbia.
    I would now like to welcome Congresswoman Norton to the 
Committee and yield for her introduction. Congresswoman Norton, 
will you please proceed.

TESTIMONY OF HON. ELEANOR HOLMES NORTON, A DELEGATE IN CONGRESS 
                 FROM THE DISTRICT OF COLUMBIA

    Ms. Norton. Thank you very much, Chairman Akaka, and may I 
take this opportunity to thank you for your work on behalf of 
the District of Columbia, and as my good friend Senator 
Voinovich prepares to retire, may I thank him once again for 
his wonderful work for our city.
    Maria Raffinan is particularly well qualified, Mr. 
Chairman, to serve on a trial court. In this case an Article I 
Court, the D.C. Superior Court, because she has spent her 
entire career litigating serious felony cases before the very 
court for which she seeks confirmation. Indeed, she has done so 
well, Mr. Chairman, that she has become a Supervising Attorney 
of the Trial Division at the Public Defender Service for the 
District of Columbia.
    She has the endorsement not only of the President, but of 
the District of Columbia Judicial Nomination Commission, which 
is chaired by a Federal Judge who is here today, and among 
whose members are two members of our bar and a representative 
of the President of the United States.
    Ms. Raffinan has trained lawyers and law students alike. 
She co-chaired a training institute for criminal practitioners 
in the District of Columbia. She is an Adjunct Professor at 
Catholic University Law School. She received her undergraduate 
degree from Boston College. Her law degree from Catholic 
University Law School.
    I strongly recommend Ms. Raffinan to you to be an Associate 
Judge on the D.C. Superior Court.
    Thank you Mr. Chairman.
    Senator Akaka. Thank you very much, Congresswoman Norton. 
We appreciate your being here today to introduce our nominee to 
be an Associate Judge, Ms. Raffinan.
    Ms. Raffinan has devoted her entire legal career to public 
service, and let me add, she currently is an attorney with the 
D.C. Public Defender Service, where she has worked for 11 years 
providing legal services to those who could not otherwise 
afford such representation. I believe she has much to offer the 
D.C. Superior Court bench, and I hope we can act quickly to 
confirm her.
    Senator Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you Mr. Chairman. I would like to 
thank you for holding this hearing today on the nomination of 
Ms. Raffinan to be an Associate Judge of the District of 
Columbia Superior Court, and Congresswoman Norton, thank you 
for being here. You have been very conscientious about coming 
over and introducing people that the President has recommended 
for these positions.
    I would like to thank you, Ms. Raffinan, for being here 
today and for your years of service to our judicial system as a 
public defender. I am proud that someone who was born in Ohio 
is such a dedicated public serviceperson, and thank you for 
devoting yourself to our legal system, which I think is the 
finest in the world.
    In addition, I want to thank your family for being here, 
and I want to assure your daughter that this is going to be 
quick; do not worry about it. [Laughter.]
    And you are qualified, and we are going to try to get you 
confirmed as fast as possible.
    Thank you, Mr. Chairman.
    Senator Akaka. Thank you very much, Senator Voinovich, for 
your very brief statement. I, too, want to welcome the family, 
and we are certainly happy to have you join us here at this 
hearing.
    The nominee has filed responses to a biographical and 
financial questionnaire submitted by the Committee. Without 
objection, this information will be made part of the hearing 
record with the exception of the financial data, which will be 
kept on file and made available for public inspection in the 
Committee's office.
    Our Committee rules require that all witnesses at 
nomination hearings give their testimony under oath. Therefore, 
at this time, I ask you to please stand and raise your right 
hand.
    Do you swear that the testimony that you are about to give 
this Committee is the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Ms. Raffinan. I do.
    Senator Akaka. Thank you. Please note for the record that 
the witness answered in the affirmative.
    Ms. Raffinan, I understand you have been working hard to 
achieve this position, and we will have some questions for you. 
I want to tell you that I am proud of you and your 
accomplishments. So at this point in time, would you please 
proceed with your statement.

 TESTIMONY OF MARIA ELIZABETH RAFFINAN \1\ TO BE AN ASSOCIATE 
       JUDGE, SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Ms. Raffinan. Thank you, Mr. Chairman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Raffinan appears in the Appendix 
on page 8.
---------------------------------------------------------------------------
    Mr. Chairman and Members of the Committee, I am grateful 
for and honored by the opportunity to appear before you today 
as a nominee to be an Associate Judge of the Superior Court of 
the District of Columbia.
    I would like to thank the Committee for considering my 
nomination so expeditiously and for the courtesy that you and 
your staff have shown me throughout this process. I would also 
like to thank the District of Columbia Judicial Nomination 
Commission for recommending me to the White House and President 
Barack Obama for nominating me.
    It is my privilege to introduce the members of my family 
who are with me today: My husband, Efrem Levy; my daughter, 
Leah Levy, who has been promised that she will get an 
opportunity to make an opening statement if she is quiet 
throughout the hearing; and my son, Jonah Levy, who is 14 
months old, but his nap schedule conflicted with the scheduling 
of this hearing so he could not be with us.
    Also my father and mother are here, Jose and Maria 
Raffinan. They have traveled here from Florida to be with me 
today, and my father-in-law and my mother-in-law, Arthur and 
Betty Levy, also flew in from Connecticut to support me.
    I thank my family not only for being here today but for the 
many years of support, encouragement, and guidance that they 
have provided me. Additionally, I have a number of friends, 
colleagues, and mentors here today, and others who are watching 
on their computers, to whom I am forever grateful to for the 
time, advice, and inspiration that they have given me 
throughout my life.
    I would also like to thank Chief Judge Lee Satterfield, who 
came to the hearing today, and also Judge Emmet Sullivan, who 
is the head of the Judicial Nomination Commission.
    I have been a proud resident of the District of Columbia 
for 18 years, since I arrived in 1992 to begin my law study at 
the Columbus School of Law at Catholic University.
    I was fortunate to have the opportunity to learn about the 
law and about legal practice in a city and in a community where 
there is such an abundance of opportunity to use legal training 
and skills to help people.
    During law school, I worked with victims of domestic 
violence and pro se litigants in family court, and as a third 
year law student, I represented indigent clients charged with 
misdemeanor offenses in the D.C. Superior Court.
    After law school, for approximately 3 years, I worked with 
the Federal Public Defender's Office for the District of 
Columbia where I learned invaluable lessons about public 
service from both the appellate lawyers and the trial lawyers 
in that office.
    It is in my proud association with the Public Defender 
Service of the District of Columbia for the last 11 years that 
I grew up as a lawyer representing clients before the Superior 
Court. The Public Defender Service has taught me much about 
hard work, commitment to public service, and respect for every 
human being. I started at the Public Defender Service (PDS) as 
a Staff Attorney in 1999 and have served as a Supervising 
Attorney since 2006.
    If confirmed, I hope to carry with me to the bench the 
values I have learned from my work at PDS about what it means 
to be just and fair and to treat every human being with dignity 
and respect.
    I am humbled to be considered for a judgeship of the 
Superior Court. I know that when my parents moved here and left 
their families in the Philippines in 1967 to relocate to 
Hillsboro, Ohio, a town with a population of about 6,000, they 
never imagined that they would be sitting here with me as a 
nominee before this Committee, in this Senate building, and in 
this city. I feel very privileged and honored to be here.
    Thank you for your time and your consideration of my 
nomination, and I would be pleased to answer any questions that 
the Committee may have for me.
    Senator Akaka. Thank you very much, Ms. Raffinan. I will 
begin with the standard questions this Committee asks of all 
nominees. I would like you to answer each of these questions.
    Is there anything that you are aware of in your background 
that might present a conflict of interest with the duties of 
the office to which you have been nominated?
    Ms. Raffinan. No, Mr. Chairman.
    Senator Akaka. Do you know of anything, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Ms. Raffinan. No, Mr. Chairman.
    Senator Akaka. Do you agree without reservation to respond 
to any reasonable summons to appear and testify before any duly 
constituted committee of Congress if you are confirmed?
    Ms. Raffinan. Yes, I do.
    Senator Akaka. Thank you very much. Ms. Raffinan, you have 
spent your entire legal career so far with the D.C. Public 
Defender Service. Why did you seek appointment to become an 
Associate Judge and what contributions do you hope to make if 
you are confirmed?
    Ms. Raffinan. Well, at the Public Defender Service, I found 
that it was a very important calling in terms of public 
service, and I had an opportunity there to serve much of the 
community of the District of Columbia, but I felt that based on 
the skills and the legal knowledge that I obtained at the 
Public Defender Service and my commitment to hard work and to 
public service, to serve as a judge in the D.C. Superior Court 
would be one of the highest callings in this community to serve 
as a public servant. I think the contributions that I would 
make would be to continue this service and commitment to the 
good work.
    Senator Akaka. While your legal experience has focused on 
criminal practice, the D.C. Superior Court handles many 
different types of cases, and a judge may not know which docket 
he or she will be assigned to. How will you prepare yourself to 
handle the wide range of legal issues that you will confront?
    Ms. Raffinan. Thank you for the question, Mr. Chairman. I 
think that I would handle the different types of topics the way 
that I have handled many different issues that have come up in 
my practice, and that is, every day in my practice a new or 
novel issue may come up, and when I am confronted or challenged 
with that issue, I research the law, consider the facts, do the 
work, consult my colleagues, and attempt to make a wise and 
good decision about what needed to be done.
    I think that I would do the same if I was approaching an 
area of law or assigned to a division in which I did not 
actually practice in that area of law, and that is, I would do 
the research in that area, listen to the litigants before me, 
apply the law to the facts, and make certain that I spoke with 
my colleagues and consulted them on the issues and hope that I 
would make a fair and just decision.
    Senator Akaka. As you know from your years of trying 
criminal cases, courtrooms can often be emotionally charged 
places. Will you please explain how your experience has 
prepared you to maintain a productive courtroom environment?
    Ms. Raffinan. Well, I think that in the criminal defense 
world, we are also faced with many chaotic issues that may 
arise, and I think one very important attribute is to maintain 
a good temperament, and I think in order to control a courtroom 
and to control the surroundings, it is important first that a 
judge be patient and be sympathetic with regard to the 
litigants who are before him or her. I think one's demeanor is 
important.
    In addition to that, I think that it is important that as I 
have seen with other judges I have been before, judges have 
schedules that they work with so that the litigants before them 
and the attorneys before them know what to expect. One will 
schedule things appropriately and try to proceed efficiently 
and justly.
    Senator Akaka. Well, thank you very much for your 
responses. Now, I will ask my good friend and Ranking Member, 
Senator Voinovich, to ask his questions.
    Ms. Raffinan. Thank you Mr. Chairman.
    Senator Voinovich. Senator Akaka has asked all the 
questions that I would have asked you.
    I think the one I am interested in getting your response to 
is this: You have been defending people a long time, and I am 
sure that during those experiences you, I suspect, had a 
feeling for their plight, many of them, without money, and you 
are in there doing the job.
    How are you going to untangle that experience that you had 
and to sit and kind of weigh both sides? I am not asking you to 
forget about that experience, but you know, you have a 
propensity, I would think, for the underdog, and now you are 
going to have to deal with the prosecutors and the defendants. 
Have you thought about that challenge that you are going to 
have in terms of your experience that you had in the past?
    Ms. Raffinan. Yes, I have, Senator Voinovich. And I think 
the most important thing is that I understand as I transition, 
if confirmed, that there is a difference between the role of an 
advocate and the role of a judge, that as a judge it is my 
responsibility and my duty to see that there are two sides to 
the story and to the facts and to the law, and to make certain 
that I am an impartial decision maker. I think that it is my 
experience at the Public Defender Service, which is that I have 
been faced with legal problems, I have discussed facts with 
real people who have real issues, and I have been asked to 
understand their issues, explain them to lawyers and to non-
lawyers, that will assist me in transitioning.
    Senator Voinovich. Thank you.
    Ms. Raffinan. Thank you.
    Senator Voinovich. I have no other questions.
    Senator Akaka. Thank you very much. I know that you 
volunteer to work with people who cannot afford legal 
representation. How has your experience prepared you to make 
sure that, if confirmed, everyone from seasoned attorneys to 
pro se litigants feels that his case was heard and given fair 
consideration?
    Ms. Raffinan. I think that every case has to be decided on 
its facts and the law, and I think it is important to be open-
minded, to listen to the litigants, and to do the research on 
the law. Whatever background they may come from, it is 
important to make sure that the litigants before you understand 
that their judge has an open mind and an open perspective, and 
I think it is with that attitude that I would approach any and 
all of the individuals who would appear before me.
    Senator Akaka. Well, I thank you very much for your 
testimony. There are no further questions from us.
    Senator Voinovich. I do not have any.
    Senator Akaka. There may be additional questions for the 
record, which will be submitted to you in writing. The hearing 
record will remain open until the close of business tomorrow 
for Members of the Committee to submit additional statements or 
questions. It is my hope that this Committee and the Senate 
will be able to act quickly on your nomination. Senator 
Voinovich and I will certainly be urging that to happen.
    So I want to thank you and your family for being here. I 
want to thank you for your responses. I want to wish you well 
in all that you do, and this hearing is adjourned.
    [Whereupon, at 3:17 p.m., the hearing was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T3831.001

[GRAPHIC] [TIFF OMITTED] T3831.003

[GRAPHIC] [TIFF OMITTED] T3831.004

[GRAPHIC] [TIFF OMITTED] T3831.005

[GRAPHIC] [TIFF OMITTED] T3831.006

[GRAPHIC] [TIFF OMITTED] T3831.007

[GRAPHIC] [TIFF OMITTED] T3831.008

[GRAPHIC] [TIFF OMITTED] T3831.009

[GRAPHIC] [TIFF OMITTED] T3831.010

[GRAPHIC] [TIFF OMITTED] T3831.011

[GRAPHIC] [TIFF OMITTED] T3831.012

[GRAPHIC] [TIFF OMITTED] T3831.013

[GRAPHIC] [TIFF OMITTED] T3831.014

[GRAPHIC] [TIFF OMITTED] T3831.015

[GRAPHIC] [TIFF OMITTED] T3831.016

[GRAPHIC] [TIFF OMITTED] T3831.017

[GRAPHIC] [TIFF OMITTED] T3831.018

[GRAPHIC] [TIFF OMITTED] T3831.019

[GRAPHIC] [TIFF OMITTED] T3831.020

[GRAPHIC] [TIFF OMITTED] T3831.002

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
